   March 27, 2002




Financial
Management
Ending Balance Adjustments to
General Ledger Data for the Army
General Fund
(D-2002-073)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS IN-SF            Defense Finance and Accounting Service Indianapolis (Sustaining
                        Forces)
GLAC                  General Ledger Account Code
GAO                   General Accounting Office
HQARS                 Headquarters Accounting and Reporting System
                        Office of the Inspector General, DoD
Report No. D-2002-073                                                    March 27, 2002
   (Project No. D2001FI-0178.001)

            Ending Balance Adjustments to General Ledger Data
                       for the Army General Fund

                                    Executive Summary

Introduction. The “Chief Financial Officers Act of 1990,” Public Law 101-576,
November 15, 1990, as amended by the “Federal Financial Management Act of 1994,”
Public Law 103-356, October 13, 1994, requires the annual preparation and audit of
financial statements. The Army did not publish stand-alone financial statements for
FY 2001 due to the loss of financial management personnel sustained during the
September 11 terrorist attack. Therefore, we did not audit Army financial information
for FY 2001 financial statements. However, Army financial statement information was
included in the DoD FY 2001 Agency-Wide Financial Statements.

Defense Finance and Accounting Service Indianapolis (Sustaining Forces), hereafter
referred to as DFAS IN-SF, provides finance and accounting support to the Army.
Support includes maintaining departmental accounting records and compiling financial
statements from general ledger trial balances and financial data on the status of
appropriations submitted by DoD field accounting entities and other sources. The
compilation process is complicated because the financial data submitted to DFAS IN-SF
are not generated by integrated, transaction-driven, general ledger accounting systems.
For 10 years, DFAS IN-SF has used a complex interim process to combine financial
information from diverse accounting and budgetary subsystems to compile the Army
General Fund financial statements. DFAS IN-SF made year-end adjustments to force
general ledger trial balances to match status-of-appropriations data.

Objectives. Our objective was to determine the cause for the ending balance
adjustments made to the Army general ledger data by DFAS IN-SF. We also reviewed
the management control program as it relates to the overall objective.

Results. Since 1991, DFAS IN-SF has made large, unsupported adjustments to correct
discrepancies between status of appropriations data and general ledger data as part of its
compilation of Army General Fund financial statements. These adjustments, known as
ending balance adjustments, have ranged from $127.8 billion to $511.8 billion annually
for FYs 1996 through 2000. The use of large unsupported adjustments in preparing
Army financial data adversely affected the reliability of the DoD FY 2001 Agency-
Wide Financial Statements and will affect both Army and DoD Agency-Wide financial
statements in the future. See the Finding section for details on the audit results. See
Appendix A for details on the management controls program.

Summary of Recommendations. We recommend that the Director, DFAS IN-SF
record Expended Appropriations prior to executing the ending balance adjustment. We
also recommend that the Director undertake a concerted, sustained effort to identify and
correct all deficiencies in the implementation of general ledger accounting and eliminate
ending balance adjustments.
Management Comments. The Director, DFAS IN-SF, concurred and established a
process to record expended appropriation transactions at the departmental level prior to
executing ending balance adjustments. DFAS will be exploring alternatives to eliminate
the need for the current ending balance adjustment process. DFAS suggested using a
short-term solution that would use budgetary data and data calls. In the long-term
DFAS plans to create a centralized database that would allow the auditors to trace
detailed transactions back to the field accounting offices’ database. The Director
concurred with establishing controls over all transactions affecting equity accounts at
the departmental level using data derived from the proposed short-term and long-term
solutions. DFAS also concurred with identifying and correcting all remaining causes of
discrepancies between general ledger trial balances and status of funds data; and DFAS
will work towards eliminating all discrepancies between general ledger trial balances
and budgetary data. See the Finding section for a discussion of management comments
and the Management Comments section for the complete text.

Audit Response. DFAS comments were partially responsive. The DFAS short-term
plan would use budgetary data rather than general ledger data, which is not compliant
with the Federal Financial Management Act of 1996 or Federal accounting standards.
Therefore, we do not agree that the short-term plans are useful. The proposed long-
term solution was not clear. The long-term solution will be acceptable if it reconciles
budgetary and general ledger data, which has been reconciled to a single source. We
request that DFAS provide additional comments on the discontinuance of the use of the
ending balance adjustments and the requirement to use general ledger data. In addition,
we request clarification on whether budget data or general ledger data will be used for
the centralized database. We request that comments on the final report be provided by
May 13, 2002.




                                           ii
Table of Contents

Executive Summary                              i


Introduction
     Background                                1
     Objectives                                2

Finding
     Ending Balance Adjustments                3

Appendixes
     A. Audit Process
         Scope                                11
         Methodology                          11
         Management Control Program Review    12
     B. Prior Coverage                        14
     C. Report Distribution                   15

Management Comments
     Defense Finance and Accounting Service   17
Background
    Chief Financial Officers Act. The “Chief Financial Officers Act of 1990,”
    Public Law 101-576, November 15, 1990, as amended by the “Federal
    Financial Management Act of 1994,” Public Law 103-356, October 13, 1994,
    requires the annual preparation and audit of financial statements. The Army did
    not prepare FY 2001 General Fund Financial Statements due to the loss of
    financial management personnel sustained during the September 11 terrorist
    attack. Because the Army did not prepare FY 2001 financial statements, an
    audit was not performed. However, the Army financial information was
    included in the DoD FY 2001 Agency-Wide Financial Statements.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act of 1996, Public Law 104-208,
    September 30, 1996, requires each Federal agency to implement and maintain
    financial management systems that comply with Federal financial management
    system requirements (Federal system requirements), applicable Federal
    accounting standards, and the U.S. Government Standard General Ledger at the
    transaction level. Federal system requirements call for audit trails that identify
    document input, changes, approval, and deletions by originator. In addition,
    Federal system requirements specify that all transactions are handled
    consistently to ensure the validity of audit trails and transactions, regardless of
    their point of origin.

    Role of the Defense Finance and Accounting Service Indianapolis
    (Sustaining Forces). DFAS Indianapolis (Sustaining Forces), hereafter referred
    to as DFAS IN-SF, provides finance and accounting support to the Army and
    the Defense agencies. Support includes maintaining departmental accounting
    records and compiling financial statements from general ledger trial balances
    and financial data on the status of appropriations submitted by DoD field
    accounting entities and other sources. The Audited Financial Statements
    Division of DFAS IN-SF Corporate Operations Directorate is responsible for
    compiling the Army General Fund financial statements.

            Compilation Process. The compilation process is complicated because
    the financial data submitted to DFAS IN-SF are not generated by integrated,
    transaction-driven, general ledger accounting systems. For 10 years,
    DFAS IN-SF used a complex interim process to combine financial information
    from five diverse accounting and budgetary subsystems to compile the Army
    General Fund financial statements. At the end of the fiscal year, field
    accounting entities supported by DFAS IN-SF submitted a general ledger trial
    balance directly to the departmental general ledger module of the Headquarters
    Accounting and Reporting System (HQARS). HQARS is a departmental system
    for receiving, validating, and consolidating budget execution, expenditure, and
    general ledger balances from field accounting offices. The general ledger data
    were consolidated into several microcomputer databases. Then general ledger
    adjustments were accumulated in an additional database. The largest
    adjustments were made to change the year-end general ledger trial balances to
    match year-end balances reported for status-of-appropriations data. After the
    general ledger adjustments were made, DFAS IN-SF used a variety of
    microcomputer programs and applications to convert the databases into the
    Army General Fund financial statements.


                                         1
             Accounting Systems. DFAS IN-SF uses its HQARS to prepare Army
     General Fund financial statements; however, HQARS does not meet Federal
     system requirements. The FY 2000 DoD Financial Management Improvement
     Plan identified HQARS as a legacy system and stated that HQARS departmental
     reporting functions would be consolidated into the Defense Departmental
     Reporting System by FY 2005. The inability to meet Federal system
     requirements will continue to exist until HQARS is replaced. HQARS receives
     general fund accounting support from five accounting subsystems; the most
     important are the Standard Operation and Maintenance, Army Research and
     Development System and the Standard Finance System. None of the subsystems
     meet Federal system requirements, and HQARS cannot comply with Federal
     system requirements until all the subsystems are also compliant. Until HQARS
     and its subsystems are compliant with Federal system requirements, the Army
     General Fund financial statements will continue to be unreliable.

     DoD Guidance. DoD Regulation 7000.14-R, “DoD Financial Management
     Regulation,” and DFAS guidance implement the policies and procedures for
     recording, compiling, and reporting financial information addressed in the
     Federal system requirements. DoD Regulation 7000.14-R also implements the
     U.S. Government Standard General Ledger and provides posting rules for the
     General Ledger Account Codes (GLACs). Both DoD and DFAS guidance
     require that accounting adjustments to the official accounting records be
     adequately prepared, supported, approved, and that causes for discrepancies be
     researched.

Objectives
     Our objective was to determine the cause for the ending balance adjustments
     made to the Army general ledger data by DFAS IN-SF. We also reviewed the
     management control program as it relates to the overall objective. Appendix A
     discusses the scope, methodology, and our review of the management control
     program, and Appendix B covers the prior audit coverage.




                                        2
           Ending Balance Adjustments
           Since 1991, the DFAS IN-SF has made large, unsupported adjustments
           to correct discrepancies between status of appropriations data and general
           ledger data as part of its compilation of Army General Fund financial
           statements. These adjustments, known as ending balance adjustments,
           have ranged from $127.8 billion to $511.8 billion annually for FYs 1996
           through 2000. DFAS IN-SF made ending balance adjustments primarily
           because general ledger accounting was not correctly implemented in the
           Army’s field accounting systems. Specifically, the field accounting
           systems did not properly account for equity and revenue transactions.
           DFAS IN-SF has taken some corrective action, but there has been no
           concerted and sustained effort to identify and correct all the deficiencies
           in the implementation of general ledger accounting. The use of large
           unsupported adjustments in preparing Army financial data adversely
           affected the reliability of the DoD FY 2001 Agency-Wide Financial
           Statements and will affect the reliability of both Army and DoD Agency-
           Wide financial statements in the future.

History of Ending Balance Adjustments
    The DFAS IN-SF has made large, unsupported adjustments to force the fiscal
    year end general ledger trial balances to agree with the fiscal year end status of
    appropriations balances. The adjustments to force the data to agree have been
    part of the compilation of Army General Fund financial statements since the
    inception of Chief Financial Officers Act reporting in FY 1991. However
    DFAS IN-SF did not have evidence to support the accounting adjustments as
    required by the Federal system requirements. These unsupported adjustments
    are called ending balance adjustments. Although DFAS IN-SF has always used
    the ending balance adjustment when compiling the Army General Fund financial
    statements, the amount of the adjustments has varied. The General Accounting
    Office (GAO) reported an ending balance adjustment of $7 billion for FY 1991.
    Table 1 shows the values of the ending balance adjustments that DFAS IN-SF
    made for FYs 1996-2000:



                     Table 1. Ending Balance Adjustment
                               FYs 1996-2000

               Fiscal Year              Adjustment (billions)

                   1996                        $127.8
                   1997                        $350.0
                   1998                        $511.8
                   1999                        $130.5
                   2000                        $237.0




                                        3
General Accounting Office. GAO Report No. AIMD-93-1, “Financial Audit:
Examination of the Army’s Financial Statements for FYs 1992 and 1991,”
June 30, 1993, concluded that much of the information needed to prepare the
financial statements was not produced by general ledger-controlled accounting
systems. Instead, the DFAS Indianapolis Center∗ used status of appropriations
data. GAO stated that DFAS Indianapolis Center made unsupported
adjustments worth $7 billion to force the General Ledger ending balances to
agree with status of appropriations ending balances. DFAS Indianapolis Center
personnel believed that the status of appropriations data were more reliable
because the DoD officials responsible for the funds certify the status of
appropriations data. However, as GAO said in its report on the Army Financial
Statements for FY 1992 and FY 1991, “there can be no assurance that either
data source (general ledger data or budgetary data) is accurate because
differences between them have not been investigated.” At that time, GAO
concluded that the accounting systems necessary to eliminate the need for the
ending balance adjustments would be in place by FY 1997. However, such
accounting systems are still not in place.

Inspector General, DoD. The Inspector General, DoD, has addressed issues
related to the ending balance adjustments in prior audits of the compilation of
the Army General Fund financial statements. Recommendations were made to
DFAS to identify and eliminate the causes for the ending balance adjustments;
however, DFAS has not been successful. See Appendix B for a list of reports
on this topic that the Inspector General, DoD, issued.

       FY 1996 Financial Statements. Report No. 98-120, “Compilation of
the FY 1996 Army Financial Statements at the Defense Finance and Accounting
Service Indianapolis Center,” April 23, 1998, states that DFAS Indianapolis
Center was not making effective use of available reconciliation tools to identify
and correct the causes for the ending balance adjustment.

        FY 1997 Financial Statements. Report No. 98-212, “Compilation of
the FY 1997 Army General Fund Financial Statements at the Defense Finance
and Accounting Service Indianapolis Center,” September 24, 1998, states that
use of status of appropriations data and expenditure data was an unacceptable
interim method (that had been in place for more than 6 years) for compiling the
Army General Fund financial statements. We reported that the DFAS
Indianapolis Center was not in compliance with requirements established in the
Federal Financial Management Improvement Act of 1996 because the
accounting system used to produce those Army General Fund financial
statements does not meet Federal system requirements. We recommended that
the Director, DFAS Indianapolis Center, establish an action plan with specific
target dates for implementation of an integrated accounting system based on
general ledger accounting.

       FYs 1998, 1999, and 2000 Financial Statements. In the audit reports
on the Army General Fund compilation we continued to state that the use of


∗
    Prior to FY 2000, DFAS IN-SF was known as the DFAS Indianapolis Center. Prior to the
    creation of DFAS in FY 1990, the DFAS Indianapolis Center was the U.S. Army Finance and
    Accounting Center.



                                           4
    status of appropriations data and expenditure data was an unacceptable interim
    method for compiling the FYs 1998 through 2000 Army General Fund financial
    statements.


Implementation of General Ledger Accounting
    We did not review the adjustments for the FY 2001 data because the Army did
    not publish FY 2001 financial statements. However, DFAS IN-SF made ending
    balance adjustments of $237 billion for FY 2000. About $218 billion
    (92 percent) of the adjustments were made to correct discrepancies in
    Unexpended Appropriations (GLAC 3100) and Cumulative Results of
    Operations (GLAC 3310). The remaining adjustments for $19 billion (or
    8 percent) were to various asset, liability, expense, and revenue GLACs. These
    discrepancies occurred because DFAS IN-SF did not correctly implement
    general ledger accounting in the field accounting systems as required by the
    Federal Financial Management Improvement Act of 1996. The former Army
    Finance and Accounting Center implemented an off-the-shelf general ledger
    accounting module for FY 1988; however, the implementation was flawed. The
    general ledger module did not record some equity and revenue transactions
    correctly. In addition, adjustments to status of appropriations reports prepared
    at some field accounting sites were not recorded in the general ledger.

    Recording Equity and Revenue Transactions. The general ledgers used in
    field accounting systems did not correctly record the use of appropriated funds.
    When an accounting entity incurs an expense or capitalized cost using
    appropriated funds, the equity account Unexpended Appropriations should be
    decreased and the revenue account Expended Appropriations should be
    increased. Field accounting systems do not record the transactions as required
    by the DoD Regulation 7000.14-R, volume 4, Chapter 18, “Revenues, Other
    Financing Sources, and Gains,” July 1999. However, the transactions are
    recorded in the status of appropriations data. Since Expended Appropriations is
    used to compute Results of Operations, Cumulative Results of Operations
    (GLAC 3310) is also affected.

           Expended and Unexpended Appropriations. DFAS IN-SF made
    accounting entries valued at $218 billion as part of the FY 2000 ending balance
    adjustment to force Unexpended Appropriations recorded in the general ledger
    to match the certified status data. This ending balance adjustment is made by
    debiting Unexpended Appropriations and crediting Cumulative Results of
    Operations. DFAS IN-SF personnel had to make a departmental adjustment of
    $67.9 billion to record expended appropriation transactions by crediting
    Expended Appropriations and debiting Cumulative Results of Operations.
    DFAS IN-SF should record the expended appropriation transactions in
    Expended Appropriations and reduce Unexpended Appropriations before
    executing the ending balance adjustment. This would have reduced the
    $218 billion ending balance adjustment by $67.9 billion.

           Cumulative Results of Operations. The failure to correctly record
    expended appropriation transactions impacts Cumulative Results of Operations
    balance. Because the annual results of operation are computed using revenue
    and expense balances, the failure to record expended appropriation transactions

                                        5
     distorts cumulative results of operations balance. The $67.9 billion in
     unrecorded Expended Appropriations for FY 2000 made up about 31 percent of
     the total discrepancy between Unexpended Appropriations and Cumulative
     Results of Operations. We were unable to determine the exact composition of
     the remaining $150.1 billion. However, our analysis indicates that figure may
     reflect the cumulative effects of improperly recording Expended Appropriations
     transactions.

     DFAS IN-SF should quantify and eliminate the accumulated error in Cumulative
     Results of Operations. If DFAS IN-SF correctly implemented general ledger
     accounting, it would eliminate the need for this adjustment to Cumulative
     Results of Operations and Expended Appropriations, and bring accounting
     processes closer to meeting Federal system requirements. Because there are
     currently no plans to correct this deficiency in the field accounting systems,
     DFAS IN-SF should prevent further accumulation of error by retaining control
     over all transactions affecting equity accounts at the departmental level.

     Adjustments to Status of Appropriation Reports. Field accounting entities
     use a monthly reconciliation process known as Electra to ensure accuracy and
     consistency of status of appropriation reports. The Army Audit Agency
     reported in FY 2001 that field accounting sites using the Standard Operation and
     Maintenance, Army Research and Development System often do not take the
     steps necessary to ensure that the adjustments made as part of the Electra
     process were recorded properly. Adjustments were posted to the status data
     reports but not to the accounting records. As a result, general ledger trial
     balances did not agree with the status of funds reports. The Army Audit
     Agency reviewed $763 million in abnormal balance adjustments for April 2000
     that caused adjustments to be made at DFAS IN-SF at year-end. If April was a
     typical month in FY 2000, the total abnormal balance adjustments would be
     $9.2 billion or 4 percent of the FY 2000 ending balance adjustment.

Correcting Deficiencies in General Ledger Accounting
     DFAS IN-SF has taken some corrective action, but there has been no concerted
     and sustained effort to identify and correct all of the deficiencies in the
     implementation of general ledger accounting. The following are actions taken
     by DFAS IN-SF management to reduce the ending balance adjustments.

     Recording of Data. In FY 1999, DFAS IN-SF identified certain departmental
     adjustments related to undistributed disbursements, collections, and accruals that
     were recorded in the status of appropriations records but not in the departmental
     general ledger. Also, DFAS IN-SF personnel identified departmental
     adjustments and accruals that were recorded in status of appropriation records
     but were not recorded in the departmental general ledger. DFAS IN-SF
     personnel initiated corrective action and reduced the FY 1999 ending balance
     adjustment to $130.5 billion as shown in Table 1.

     Fiscal Station Reconciliation Program. In FY 1999, DFAS IN-SF
     modernized the fiscal station reconciliation program by posting the lists of
     differences between the status of appropriations data and general ledger data on
     the DFAS server. However, the program is currently inactive, and the formulas
     used by the fiscal station reconciliation program need to be updated. The


                                         6
       potential benefit of the fiscal station reconciliation program is to eliminate
       discrepancies between the general ledger trial balance and status of
       appropriations data. Such discrepancies were the result of local accounting
       errors.

       Analysis of Ending Balance Adjustments. During FY 2001, DFAS IN-SF
       personnel analyzed the ending balance adjustments for 2 out of 65 basic
       symbols, identifying the failure to correctly record Expended Appropriations as
       the most significant cause of the ending balance adjustments for those basic
       symbols. The analysis also identified transactions included in the ending
       balance adjustment that were actually asset reclassifications. However,
       DFAS IN-SF did not develop a plan of action to eliminate the need for the
       ending balance adjustments.


Impact of Ending Balance Adjustments
       DFAS IN-SF personnel prepared five accounting entries, called ending balance
       adjustments, valued at $237 billion in FY 2000 to force the general ledger data
       to agree with budgetary data. As a result, the reliability of the Army General
       Fund financial statements was reduced by large unsupported adjustments and the
       Army General Fund Equity was materially misstated. For FY 2000, the ending
       balance adjustments had an effect on all the Army General Fund financial
       statements except the Statement of Budgetary Resources. Table 2 shows the
       material effect on the FY 2000 Army General Fund Financial Statements by the
       ending balance adjustment.


         Table 2. FY 2000 Army General Fund Financial Statements Lines
               Materially Affected by the Ending Balance Adjustment

                                                                        Percent Change
  Financial Statement               Financial Statement Line           due to Adjustment

     Balance Sheet          1A1: Fund Balance With Treasury                    -6.53
                            1A3: Intragovernmental Accounts
                                 Receivable                                 +27.15
                            1A4: Other Intragovernmental Assets              -18.56
                            1B: Cash and Other Money Assets                  -16.11
                            1C: Public Accounts Receivable                   -38.88
                            1G: Other Assets                                +27.09
                            3A1: Intragovernmental Accounts Payable         -139.62
                            3A4: Other Intragovernmental Liabilities         -33.86
                            3B: Public Accounts Payable                      -42.65
                            5A: Unexpended Appropriations                    -89.38
                            5B: Cumulative Results of Operations            -100.29

Statement of Net Position   2B: Non-Exchange Revenue                        +17.49
                            8:  Net Position, Beginning Of Period           -120.63




                                              7
    Because of the material impact of the ending balance adjustments, the FY 2000
    Army General Fund Financial Statements were materially influenced by
    unsupported accounting data. The effects of the FY 2000 ending balance
    adjustments are typical of the effects of the ending balance adjustments of
    previous fiscal years. For example, Unexpended Appropriations was changed
    by -77.16, -89.73, and –77.93 percent in the Army General Fund Financial
    Statements for FYs 1999, 1998, and 1997 respectively. Unsupported
    adjustments of this scale render the Army General Fund Financial Statements
    unreliable.

Command Actions
    We informed DFAS IN-SF of the preliminary results of this audit on
    August 30, 2001. While preparing the Army General Fund data that was
    included in the DoD FY 2001 Agency-Wide Financial Statements, DFAS IN-SF
    personnel recorded expended appropriation transactions at the department level
    prior to executing the FY 2001 ending balance adjustments. As a result, the
    FY 2001 ending balance adjustment was reduced by $83.7 billion. We
    commend DFAS for taking this step to improve the compilation process.


Conclusion
    Since 1991, DFAS IN-SF has made large, unsupported adjustments to correct
    discrepancies between status of appropriations data and general ledger data.
    The Inspector General, DoD has addressed issues relating to these unsupported
    ending balance adjustments in every audit of the Army General Fund financial
    statements since 1996. We stated that the use of status of appropriations data
    and expenditure data was an unacceptable interim method for compiling the
    FYs 1997 through 2000 Army General Fund Financial Statements. We made
    recommendations to DFAS IN-SF to identify and eliminate the causes for the
    ending balance adjustments and develop a plan of action with specific target
    dates to implement an integrated accounting system based on general ledger
    accounting. DFAS IN-SF actions have not been effective in correcting the
    deficiencies in the accounting system.

    The ending balance adjustments almost doubled from FY 1999 to FY 2000. By
    correcting the accumulated error in GLAC 3310 and controlling all equity
    transactions, including recording appropriations used at the departmental level,
    we believe that up to 92 percent of the FY 2000 ending balance adjustment of
    $237 billion could have been eliminated. The need for ending balance
    adjustments will continue until general ledger accounting is correctly
    implemented throughout the Army’s accounting system. Unless DFAS IN-SF
    makes a concerted and sustained effort to identify and correct all the deficiencies
    in the implementation of general ledger accounting, the Army General Fund
    financial statements will continue to be unreliable. Ending balance adjustments
    should be eliminated after FY 2001.




                                         8
Recommendations, Management Comments, and Audit
Response
    Deleted Recommendation. We deleted draft report Recommendation 4 to
    reestablish the fiscal station reconciliation program. We agree with
    management comments that if only general ledger data is used for financial
    reporting, the fiscal station reconciliation program will no longer be needed.

    We recommend that the Director, Defense Finance and Accounting Service
    Indianapolis (Sustaining Forces):

            1. Record expended appropriation transactions at the departmental
    level prior to executing ending balance adjustments and discontinue the use
    of ending balance adjustments after FY 2001.

    Management Comments. The Director, DFAS IN-SF, concurred with the
    recommendation. The Director stated that the action of recording expended
    appropriations at the departmental level was completed prior to executing the
    FY 2001 ending balance adjustments. The Director proposed an interim
    solution for FY 2003 that will use both budgetary data and data calls. By
    September 2004, DFAS plans to develop a long-term solution involving the
    creation of a centralized database containing all detail accounting transactions
    reported by supporting accounting offices. The centralized database will be a
    single source of data that will be used to generate required reports and allow
    auditors to trace transactions back to information at the field accounting offices.

    Audit Response. The Director comments are partially responsive to the
    recommendation. Recording of Expended Appropriation transactions at the
    departmental level prior to executing ending balance adjustments is responsive.
    DFAS IN-SF did reduce the FY 2001 ending balance adjustment by
    $83.7 billion. However, the suggested interim solution is not acceptable
    because it continues to use budgetary data and merely hides the problem. In the
    proposed long-term solution, it was not clear whether budgetary or general
    ledger data will be reconciled. We request that DFAS discontinue plans for the
    interim solution and clarify its intention to use general ledger data so that the
    ending balance adjustment is not needed. DFAS IN-SF has the capability to
    discontinue making the ending balance adjustment because general ledger data is
    available as discussed in the report. If the recommendation is not fully
    implemented in FY 2002, the ending balance adjustment could increase and
    necessitate that DFAS IN-SF try to reconcile budget and general ledger data.
    We request that the Director provide a date that the use of the ending balance
    adjustment will be discontinued.

           2. Establish control over all transactions affecting equity accounts at
    the departmental level.

    Management Comments. The Director concurred with the recommendation
    and stated that the DFAS IN-SF will use the Defense Departmental Reporting
    System to establish and maintain beginning balances for equity accounts.
    Current year activity will be derived from the process being developed as



                                         9
described in the response to Recommendation 1. Therefore, actions will not be
complete until the proposed plans for implementing Recommendation 1 are
complete.

Audit Response. The Director’s comments are partially responsive to the
recommendation. We agree with the process to establish and maintain
beginning balances for equity accounts in the Defense Departmental Reporting
System. However, general ledger data rather than budgetary data must be used
to derive current year activity. The Federal Financial Management
Improvement Act of 1996 requires the use of the U.S. Government Standard
General Ledger at the transaction level. The use of budget data is a form of
cash basis accounting, which is not compliant with Federal accounting standards
and could result in an incorrect amount for equity. We request that the Director
clarify that general ledger data will be used to populate the appropriate accounts
in response to Recommendations 1 and 2.

      3. Identify and correct all remaining causes of discrepancies
between general ledger trial balances and status of funds data in FY 2002.

Management Comments. The Director concurred with the recommendation
and stated that DFAS IN-SF will work toward eliminating the discrepancies by
creating a centralized database containing all detailed accounting transactions
reported by the field network. The centralized database will contain a
single source of data. The estimated completion date of this action is
September 30, 2003.

Audit Response. Although the Director concurred with the recommendation,
the comments are not responsive to the intent of the recommendation. We agree
that DFAS IN–SF should use a single source of data; however, we disagree with
the source of data that will be used. The Federal Financial Management
Improvement Act of 1996 states that the source of data is required to be
U.S. Government Standard General Ledger data at the transaction level, not
budgetary data. We request that the Director provide additional comments on
the final report to clarify that general ledger data will be used for the centralized
database.




                                     10
Appendix A. Audit Process

Scope
            We reviewed the process and system that DFAS IN-SF used to make ending
            balance adjustments to the Army General Fund general ledger data. Our
            examination included a review of the general ledger adjustments accumulated in
            the Chief Financial Officer Load and Reconciliation System for FY 2000. We
            reviewed the audit results for the Army General Fund compilation for
            FYs 1991, 1992 and 1996-2000. We did not perform a detailed review the
            adjustments for the FY 2001 data because the Army did not publish FY 2001
            financial statements due to loss of resources sustained during the September 11
            terrorist attack.1 We limited our review of FY 2001 information to obtaining
            the total amount of the ending balance adjustments for FY 2001. The Army
            General Fund reported $80.7 billion in assets, $54.2 billion in liabilities, and
            $628.2 million in cumulative results of operations in its FY 2000 financial
            statements.

            General Accounting Office High-Risk Area. The GAO has identified several
            high-risk areas in the DoD. This report provides coverage of the Defense
            Financial Management high-risk area.

Methodology
            We reviewed the DFAS IN-SF financial reporting processes including the
            applications used and the policies and procedures needed in the preparation of
            accounting information to create the Army General Fund financial statements.
            The review included the following:

                    •    Review of the Chief Financial Officer Load and Reconciliation
                         System, which determines the adjustments necessary to force general
                         ledger accounting data recorded in SOURCE212 to match the
                         certified status data in TRC_CY3. These adjustments are recorded in
                         JVDATA, a database used to record the general ledger adjustments.

                    •    Assessment of whether the processes used by DFAS IN-SF to make
                         accounting entries and compile general ledger trial balance data were

1
    Financial information for the Army that would have been included in stand-alone financial statements for
    the Army was included in the DoD FY 2001 Agency-Wide Financial Statements. Specific information
    for the Army General Fund was also included in the DoD FY 2001 Supporting Consolidating and
    Combining Statements.
2
    Trial balances submitted by the fiscal stations for accounting month 12, summarized by GLAC by
    appropriation.
3
    A subset of the year end certified status data extracted from the Departmental Budgeting and Accounting
    Reporting System database used to compute the adjustments needed to force the general ledger data to
    agree with certified status data (the ending balance adjustment).



                                                      11
                          in compliance with applicable laws and regulations including
                          accounting standards and accounting system requirements. We
                          specifically reviewed the adequacy of the Federal Financial
                          Management Improvement Act of 1996, DoD Regulation 7000.14-R
                          and DFAS guidance issued October 1999, and August 2, 2000,
                          relating to the audit objective.

                     •    Review of reports issued by the General Accounting Office and the
                          Inspector General, DoD from FY 1991 through FY 2000 regarding
                          the ending balance adjustments DFAS IN-SF made to force the
                          general ledger ending balances to agree with status of appropriations
                          data ending balances.

                     •    Interviews with personnel at the DFAS IN-SF.

            Use of Computer-Processed Data. To achieve the audit objective, we relied
            primarily on computer-processed data in DFAS databases ZPBI4, JVDATA, and
            G0A5 for both FY 1999 and FY 2000. We tested the data and determined that
            they were complete but not subject to adequate controls. However, when the
            data are reviewed in context with other available evidence, we believe that the
            opinions, conclusions, and recommendations in this report are valid. Field-level
            systems were not included in our review. Therefore, we can comment only on
            the reliability of data processed after receipt by DFAS IN-SF.

            Audit Type, Period, and Standards. We performed this financial-related audit
            from July 2001 through November 2001 in accordance with generally accepted
            government auditing standards. The audit included such tests of management
            controls as we considered necessary.

            Contacts During the Audit. We visited or contacted individuals and
            organizations within DoD. Further details are available upon request.

Management Control Program Review
            DoD Directive 5010.38, “Management Control (MC) Program,”
            August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
            Program Procedures,” August 28, 1996, require DoD organizations to
            implement a comprehensive system of management controls that provides a
            reasonable assurance that programs are operating as intended and to evaluate the
            adequacy of the controls.

            Scope of the Review of the Management Control Program. We evaluated
            management controls over DFAS IN-SF processes and procedures for
            consolidating financial data from field organizations and other sources for
            preparation of the Army General Fund financial statements.

4
    General ledger file used for monthly reconciliation at the fiscal station level.
5
    Summary at appropriation/limit/fiscal station number/allotment serial number level of all status data
    reported to DFAS IN-SF for a given accounting month, plus departmental adjustments. The data is
    cumulative year-to-date.



                                                         12
Adequacy of Management Controls. A material management control weakness,
as defined by DoD Directive 5010.38, existed in the DFAS IN-SF procedures for
compiling the Army General Fund financial statements. Management controls at
the DFAS IN-SF were not adequate to ensure the reliability of the Army General
Fund financial statements. The recommendations, if implemented, will improve
controls over ending balance adjustments. A copy of the report will be
provided to the senior official responsible for management controls at
DFAS IN-SF.

Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
was not adequate. DFAS IN-SF officials identified financial statement reporting
as an assessable unit and all major function controls identified were considered
to be vital. However, the testing of these vital controls did not include the
conclusion of the examination of the vital controls. Also, DFAS IN-SF had two
identified material weaknesses in the FY 2000 DFAS Consolidated Annual
Statement of Assurance that were not addressed in management’s
self-evaluation.




                                   13
Appendix B. Prior Coverage

General Accounting Office
    GAO Report No. AIMD-93-1 (OSD Case No. 9276-E), “Financial Audit:
    Examination of the Army’s Financial Statements for Fiscal Years 1992 and
    1991,” June 30, 1993

    GAO Report No. AFMD-92-83 (OSD Case No. 8674), “Financial Audit:
    Examination of the Army’s Financial Statements for Fiscal Year 1991,”
    August 7, 1992

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-158, “Compilation of the FY 2000
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis (Sustaining Forces),”July 13, 2001

    Inspector General, DoD, Report No. D-2000-160, “Compilation of the FY 1999
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” July 12, 2000

    Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” May 12, 1999

    Inspector General, DoD, Report No. 98-212, “Compilation of the FY 1997
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” September 24, 1998

    Inspector General, DoD, Report No. 98-120, “Compilation of the FY 1996
    Army Financial Statements at the Defense Finance and Accounting Service
    Indianapolis Center,” April 23, 1998

    Inspector General, DoD, Report No. 96-161, “Compilation of the FY 1995 and
    FY 1996 DoD Financial Statements at the Defense Finance and Accounting
    Service Indianapolis Center,” June 13, 1996




                                      14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service (Sustaining Forces)

Non-Defense Federal Organization
Office of Management and Budget




                                           15
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         16
Defense Finance and Accounting Service
Comments




                   17
18
     Final Report
      Reference




        Deleted




19
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Jack L. Armstrong
Paul C. Wenzel
Kara N. Welty
